No. 20-138

Tbe
ipuprente Court of tbe littiteb 6tateg
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., Petitioners,

V.
SIERRA CLUB, ET AL., Respondents.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., Petitioners,

U.
STATE OF CALIFORNIA, ET AL., Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE

Benjamin P. Sisney, a member of the Bar of this Court and an attorney for
amicus, pursuant to Rule 29 and the Court's Order of April 15, 2020 (ORDER
LIST: 589 U.S.), hereby certifies that an electronic copy of the Amicus Curiae
Brief of the American Center for Law & Justice in Support of Petitioners have
this day been served upon all parties required to be served, at the email
addresses identified below:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Petitioners
Joshua A. Klein
California Department of Justice
Office of the Solicitor General
1515 Clay Street
Suite 2000
Oakland, CA 94612-1413

510-879-0756
joshua.klein@doj.ca.gov
Counsel of Record for Respondent State of California
Cecillia D. Wang
Deputy Legal Director
Director, Center for Democracy
American Civil Liberties Union
39 Drumm Street
San Francisco, CA 94111
415.343.0775
Cwang@aclu.org
Counsel for Sierra Club

Is! Benjamin P. Sisney
Benjamin P. Sisney
American Center for Law & Justice
201 Maryland Avenue, NE
Washington, DC 20002
202-384-0259
bsisney@aclj.org
Counsel for Amicus Curiae
September 8, 2020

